<html>
<title> - THE FUTURE OF COMMERCIAL MOTOR VEHICLE SAFETY: TECHNOLOGY, SAFETY INITIATIVES, AND THE ROLE OF FEDERAL REGULATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







   THE FUTURE OF COMMERCIAL MOTOR VEHICLE SAFETY: TECHNOLOGY, SAFETY 
            INITIATIVES, AND THE ROLE OF FEDERAL REGULATION

=======================================================================

                                (114-15)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-380 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York

                                  (ii)







  


                  Subcommittee on Highways and Transit

                     SAM GRAVES, Missouri, Chairman

DON YOUNG, Alaska                    ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee       Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            STEVE COHEN, Tennessee
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALBIO SIRES, New Jersey
LOU BARLETTA, Pennsylvania           DONNA F. EDWARDS, Maryland
BLAKE FARENTHOLD, Texas              JANICE HAHN, California
BOB GIBBS, Ohio                      RICHARD M. NOLAN, Minnesota
RICHARD L. HANNA, New York           ANN KIRKPATRICK, Arizona
DANIEL WEBSTER, Florida              DINA TITUS, Nevada
JEFF DENHAM, California              SEAN PATRICK MALONEY, New York
REID J. RIBBLE, Wisconsin            ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              LOIS FRANKEL, Florida
TOM RICE, South Carolina             CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina         JARED HUFFMAN, California
SCOTT PERRY, Pennsylvania            JULIA BROWNLEY, California
RODNEY DAVIS, Illinois               MICHAEL E. CAPUANO, Massachusetts
ROB WOODALL, Georgia                 GRACE F. NAPOLITANO, California
JOHN KATKO, New York                 CORRINE BROWN, Florida
BRIAN BABIN, Texas                   DANIEL LIPINSKI, Illinois
CRESENT HARDY, Nevada                PETER A. DeFAZIO, Oregon (Ex 
RYAN A. COSTELLO, Pennsylvania       Officio)
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)




















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               WITNESSES

Danny Schnautz, Vice President, Clark Freight Lines, on behalf of 
  the Owner-Operator Independent Drivers Association:

    Testimony....................................................     6
    Prepared statement...........................................    45
    Responses to questions for the record from Hon. Eleanor 
      Holmes Norton, a Delegate in Congress from the District of 
      Columbia...................................................    63
Tom B. Kretsinger, Jr., President and Chief Executive Officer, 
  American Central Transport, on behalf of the American Trucking 
  Associations:

    Testimony....................................................     6
    Prepared statement...........................................    67
    Responses to questions for the record from Hon. Elizabeth H. 
      Esty, a Representative in Congress from the State of 
      Connecticut................................................    78
William ``Bill'' Reese, Captain, Idaho State Police, on behalf of 
  the Commercial Vehicle Safety Alliance:

    Testimony....................................................     6
    Prepared statement...........................................    79
    Additional comments for the record...........................    92
Brian Scott, President, Escot Bus Lines, LLC, on behalf of the 
  United Motorcoach Association:

    Testimony....................................................     6
    Prepared statement \1\.......................................    95
LaMont Byrd, Director of Safety and Health, International 
  Brotherhood of Teamsters:

    Testimony....................................................     6
    Prepared statement...........................................   108
    Responses to questions for the record from Hon. Eleanor 
      Holmes Norton, a Delegate in Congress from the District of 
      Columbia...................................................   130

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Elizabeth H. Esty, of Connecticut...........................    43

                       SUBMISSIONS FOR THE RECORD

Hon. Richard L. Hanna, a Representative in Congress from the 
  State of New York, submission of press release, American 
  Transportation Research Institute, ATRI Research Finds Truck 
  Operations and Safety Have Been Impacted by 34-Hour Restart 
  Provisions, April 29, 2015.....................................    15
Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, submission of the following documents:

    Letter to Hon. Napolitano from Ron Cottingham, President, 
      Peace Officers Research Association of California, February 
      18, 2013...................................................    21
    Written statement of Lawrence Liberatore, Board Member, 
      Parents Against Tired Truckers.............................   134
    Written statement of Ron Wood, Volunteer, Truck Safety 
      Coalition, and Member, Entry-Level Driver Training Advisory 
      Committee, Federal Motor Carrier Safety Administration.....   136
    Written statement of Frank Wood, Volunteer, Truck Safety 
      Coalition..................................................   138

----------
\1\ The appendix to Mr. Scott's prepared statement can be found online 
at the U.S. House of Representatives Document Repository at http://
docs.house.gov/meetings/PW/PW12/20150429/103351/HHRG-114-PW12-Wstate-
ScottB-20150429.pdf.



    Written statement of Joan Claybrook, Cochair, Advocates for 
      Highway and Auto Safety....................................   140
    Letter to House Committee on Appropriations from five Idaho 
      groups in opposition to special interest truck safety 
      exemptions in the fiscal year 2016 THUD appropriations 
      bill, May 12, 2015.........................................   159
    Letter to House Committee on Appropriations from Parents 
      Against Tired Truckers and Citizens for Reliable and Safe 
      Highways imploring the removal of all anti-truck safety 
      provisions in the fiscal year 2016 THUD appropriations 
      bill, May 12, 2015.........................................   161
Hon. Reid J. Ribble, a Representative in Congress from the State 
  of Wisconsin, submission of a Federal Motor Carrier Safety 
  Administration study summary of truck stopping distances.......    32

                        ADDITIONS TO THE RECORD

American Bus Association, written statement of Peter J. Pantuso, 
  President and Chief Executive Officer..........................   165
Associated General Contractors of America, written statement.....   167
Uline, written statement of Elizabeth Uihlein, President.........   171

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
   THE FUTURE OF COMMERCIAL MOTOR VEHICLE SAFETY: TECHNOLOGY, SAFETY 
            INITIATIVES, AND THE ROLE OF FEDERAL REGULATION

                              ----------                              


                       WEDNESDAY, APRIL 29, 2015

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
room 2167, Rayburn House Office Building, Hon. Sam Graves 
(Chairman of the subcommittee) presiding.
    Mr. Graves of Missouri. We will go ahead and call the 
hearing to order. I appreciate everybody being here today, and 
we are going to focus on the future of motor carrier safety. 
And it is important to note at the outset that the safety 
record of commercial motor carriers and motorcoach operators 
has improved dramatically since the Federal Motor Carrier 
Safety Administration was established in 1999.
    According to the FMCSA's most recent ``Large Truck and Bus 
Crash Facts,'' the number of large trucks and buses involved in 
fatal crashes decreased by 17 percent and 4 percent, 
respectively, from 2003 to 2013. Industry, drivers, and the 
enforcement community alike deserve the credit for all of these 
achievements.
    Congress, and this committee in particular, has played an 
important role as well, from creating the FMCSA to focus 
specifically on truck and bus safety, to authorizing the Motor 
Carrier Safety Assistance Program, which provides resources for 
States to enforce Federal commercial motor vehicle regulations. 
I am concerned, however, about the growing scope and number of 
new regulations being placed on the industry. Just in the past 
few years, the agency has imposed new hours-of-service 
regulations; implemented the controversial CSA program; and, at 
the direction of Congress, it has imposed new equipment 
mandates on both truck and bus operations and operators.
    I am also concerned about the growth of FMCSA. The budget 
for the agency has more than doubled since fiscal year 2001, 
its first full year of operation, and stands at $572 million. 
While I support a strong safety program, we need to ensure that 
funds are being spent on initiatives that will move the needle 
in terms of reducing crashes, injuries, and fatalities on the 
Nation's highways. Of particular concern to me is a recent 
regulatory proposal to raise the minimum levels of financial 
responsibility, potentially by millions of dollars.
    As this committee continues to work on the long-term 
surface transportation reauthorization, we should examine what 
additional safety technologies and initiatives and commonsense 
reforms to the regulatory process could be employed to further 
reduce crashes, injuries, and deaths attributable to commercial 
motor vehicles, if more regulation is needed--or should 
Congress concentrate to a greater extent on providing the right 
incentives for truck and bus operators to operate safely?
    We are grateful that each of the stakeholders represented 
today has developed thoughtful policy recommendations, and look 
forward to a robust debate over the specific proposals. From 
providing greater flexibility to State enforcement agencies, to 
encouraging the development and deployment of active safety 
systems and reforming the way FMCSA undertakes rulemakings, 
various proposals deserve robust debate and some serious 
consideration.
    I am hopeful that today's hearing is going to provide our 
subcommittee members with insight into the broad spectrum of 
proposals to continue improving motor carrier safety and inform 
this committee's work as we develop a long-term surface 
transportation reauthorization bill. And I look forward to 
hearing from our witnesses.
    And I now recognize Ms. Norton for her opening statement.
    Ms. Norton. Thank you very much, Chairman Graves, for 
scheduling this hearing. This is an important hearing. And I 
congratulate you, because it is the first hearing under your 
leadership. And I look forward to working closely with you.
    I recognize, Mr. Chairman, that both you and Chairman 
Shuster want a long-term highway bill. So before I say anything 
about the direct subject matter, important vehicle safety 
issues, I must express the frustration I am hearing, not only 
in my district, but from around the country, about the delay, 
or what appears to be delay, in getting through this committee 
a long-term surface transportation authorization bill.
    Mr. Chairman, if not a long-term bill--for example, a 4-
year bill, and I have been here when there have been 6-year 
bills--certainly a longer term bill than the past, the very 
short bill that was passed in 2012. We need the longest term 
bill possible. It is inconceivable to me that we are 10 days 
away from May 31st, the date the deadline expires. And I have 
seen no indication that, during this period, there has been 
movement on even trying to get a bill.
    That is what is most troubling to me, Mr. Chairman. And it 
is particularly frustrating, now that we are full into the 
construction season. And there is no certainty of the future of 
a highway and transit program with funding, whatsoever, that we 
have been able to transmit to State and local governments. So, 
what do we see them doing? They are already slowing down 
projects that have been long delayed.
    I also do not see the search for a sustainable solution to 
shore up the Highway Trust Fund. We know what happened with the 
solution we have been using for 50 years; we ran out of funds, 
and funds had to be transmitted from the Treasury in order to 
just get through the authorized period. The Congressional 
Budget Office estimates that the shortfall, if we use that 
approach, is $174 billion over the next 10 years. And that is 
just to maintain funding levels, without doing anything about 
what have become now increasingly urgent needs in our State and 
localities.
    The gap for a 6-year bill at current levels is $92 million. 
And if you want to see that increase, the longer we hold up, 
the more expensive whatever bill we put out will be. So you 
would think that there would be every effort to contain the 
cost by getting a bill out on the streets now.
    The real test is how quickly Congress moves after we pass 
whatever extension we do, of course, to find a funding plan for 
a long-term bill. I know that Chairman Shuster stands firm in 
wanting our committee and our subcommittee to move a robust, 
long-term bill. It is up to the Republican leadership and the 
tax-writing committees to come to the table and show that they 
are serious, as well.
    Today's hearing, of course, is about the future of motor 
carrier safety. This is a subject that I am very interested in, 
and particularly the innovative technologies and new ideas that 
I have begun to hear about to raise the bar on safety. I hope 
this hearing, however, is a refreshing change from what has 
become the norm on truck and bus issues: endless requests for 
exemptions and calls to block DOT safety rules.
    There is, no doubt, room for some improvement on many rules 
that the Federal agencies have issued. But, rather than calls 
to eliminate regulation, as has become the norm, we should be 
challenging industry, DOT, and stakeholders to sit down, be 
creative, work toward a common goal, and utilize their 
resources in a way that will have the most positive effect on 
safety.
    I know we can do this. This is not an impossible task. I am 
very interested to hear about steps in the right direction. For 
example, DOT recently convened a negotiated rulemaking 
committee to develop a rule on driver training. More robust 
driver training is something Congress has directed DOT to 
consider for nearly 25 years. The first directive was in a bill 
in 1991. To say this rule is overdue is putting it fairly 
mildly. I hope that this new committee can facilitate a rule 
that all parties can agree to, which will expedite DOT's 
publication of the rule, and limit litigation once it is 
finalized.
    I would also like to recognize, finally, Mr. Chairman, the 
dedication of safety advocates and family members of truck 
accident victims who come to Members of Congress and continue 
to work tirelessly to educate Congress and the public. Their 
stories help to heighten our awareness of the real-world 
impacts that policy decisions have on our constituents' lives. 
I welcome their presence here today, as we discuss this issue.
    Mr. Chairman, I may have to leave because of the Rules 
Committee, but I will certainly return. And, again, I thank you 
for this hearing.
    Mr. Graves of Missouri. Thank you, Ranking Member Norton.
    I am very pleased to have Ranking Member DeFazio with us, 
and I would yield to him for an opening statement.
    Mr. DeFazio. Thanks, Mr. Chairman. First and foremost, 
congratulations on taking over the very important Subcommittee 
on Highways and Transit. This, I think, is your first official 
hearing. And so, congratulations on that. It is an appropriate 
subject.
    You know, I am also looking forward to working with you on 
a long-term, robustly funded surface transportation bill. I 
think everybody in the audience should clap at that point.
    I delved very deeply into highway and motor carrier safety 
during my 4 years as chairman of the subcommittee. We held nine 
hearings. Many of the problems we investigated--development of 
the CSA, drug testing, medical qualifications of drivers, bus 
safety, truck size and weight, FMCSA's oversight of carriers--
it is all, unfortunately, still very much a work in progress. 
Very little has been settled.
    Since FMCSA was created, Congress has continuously 
legislated in this area. In MAP-21 alone, we directed FMCSA to 
undertake 41 regulatory changes, most of which required 
rulemaking. We keep mandating lots of activity. And today it 
seems to have resulted in less clarity for the industry, and a 
wide variety of stakeholders. I think we can do better.
    The title of this hearing is ``The Future of Commercial 
Motor Vehicle Safety,'' and I hope some forward-thinking ideas 
come out of this hearing. I am very open to solutions that 
allow flexibility, while advancing safety, and helping drivers 
do their jobs more efficiently. And I think, in order to look 
holistically at safety, we have got to look at the realities 
and the pressures on the ground or on the highway and the 
industry, and understand what drives decisionmaking and 
behavior by companies and drivers.
    And Federal rules are just one part of that. You know, 
temporarily blocking FMCSA efforts or granting exemptions may 
provide some degree of relief or advantage to one segment of 
the industry or another, but it is a Band-Aid approach. It is 
not what we should be doing, long term.
    Let's take an example. And I spent some time on this issue: 
hours of service. FMCSA's regulations are incredibly difficult 
to understand. You know, for our economy to thrive, we can't 
hamstring companies with overly prescriptive rules. At the same 
time, hours of service are the basic wage and hour laws for the 
men and women whose office is the highway, and they aren't 
eligible for overtime under the Fair Labor Standards Act. And 
we need to address the, really, very important potential for 
fatigued drivers on the highways.
    But I don't think we can get there until we address some 
underlying issues, such as detention time. Changes in hours-of-
service rules will have limited impact, if we haven't dealt 
with detention time, particularly as it relates to independent 
and small-business drivers. The truck driver gets to the 
loading dock, shipper facility, they can sit there, say, 3 
hours, sometimes even more, waiting. But it counts against 
their daily and weekly on-duty limits. And most truck drivers 
are paid by the load, rather than a set wage, particularly the 
independent and small business. So these drivers often face the 
impossible choice between earning less money than they need to 
stay in business, despite working a 14-hour day, or violating 
hours-of-service rules, or shaving them a little bit.
    That is a problem that should be dealt with. We used to 
have rules to deal with that. There is no incentive on the 
other side of these loads any more, without detention time pay, 
to be efficient for the drivers. It is better with the bigger 
companies, because they can really carry some clout there. But, 
for a lot of the small business and independents, it is a very 
real problem.
    I have introduced legislation on the detention time in the 
past, you know, because we owe it to drivers to get the rules 
right, to combat fatigue, and to give them a fair shot at 
making a good living. And if the current rules don't get to 
that goal, then Congress needs to look at other solutions.
    I look forward to hearing some innovative ideas. I thank 
the witnesses for their somewhat voluminous testimony. I did 
read it all on the airplane yesterday. Luckily, I had a 5-hour 
flight. And coffee.
    [Laughter.]
    Mr. DeFazio. But there are some very interesting premises 
in there. I do find some differences of opinion on some 
critical issues, and hopefully that will come out during the 
hearing today.
    Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Thanks, Ranking Member DeFazio.
    So, I would like to welcome all of our witnesses here. And 
I know some of you traveled a long ways, and we obviously 
appreciate that. I am very--I am especially pleased to 
introduce Tom Kretsinger, who hails from the Kansas City area. 
Tom joined the family business in 1981, after graduating from 
law school, and has served as the president of American Central 
Transport since 2005. It is a truckload carrier operating over 
300 trucks. Tom is an active member of the American Trucking 
Associations, serving on its ATA Executive Committee and board 
of directors, and chairing the ATA Litigation Center. He is a 
previous chairman of the Truckload Carriers Association, and 
serves on TCA's board of directors.
    Tom, welcome to the committee.
    I would also like to welcome our other panelists, Mr. Danny 
Schnautz, vice president, Clark Freight Lines, and he is here 
on behalf of the Owner-Operator Independent Drivers 
Association; Captain Bill Reese, with the Idaho State Police, 
on behalf of the Commercial Vehicle Safety Alliance; Mr. Brian 
Scott, who is president of Escot Bus Lines, on behalf of the 
United Motorcoach Association; and Mr. LaMont Byrd, who is the 
director of safety and health, International Brotherhood of 
Teamsters.
    I would ask unanimous consent that our witnesses' full 
statements be included in the record.
    [No response.]
    Mr. Graves of Missouri. And, without objection, that is so 
ordered.
    And since your written testimony is going to be made a part 
of the record, the committee would ask that you please limit 
your testimony to 5 minutes.
    And, with that, Mr. Schnautz, we will start with you.

  TESTIMONY OF DANNY SCHNAUTZ, VICE PRESIDENT, CLARK FREIGHT 
  LINES, ON BEHALF OF THE OWNER-OPERATOR INDEPENDENT DRIVERS 
   ASSOCIATION; TOM B. KRETSINGER, JR., PRESIDENT AND CHIEF 
EXECUTIVE OFFICER, AMERICAN CENTRAL TRANSPORT, ON BEHALF OF THE 
    AMERICAN TRUCKING ASSOCIATIONS; WILLIAM ``BILL'' REESE, 
   CAPTAIN, IDAHO STATE POLICE, ON BEHALF OF THE COMMERCIAL 
  VEHICLE SAFETY ALLIANCE; BRIAN SCOTT, PRESIDENT, ESCOT BUS 
LINES, LLC, ON BEHALF OF THE UNITED MOTORCOACH ASSOCIATION; AND 
   LAMONT BYRD, DIRECTOR OF SAFETY AND HEALTH, INTERNATIONAL 
                    BROTHERHOOD OF TEAMSTERS

    Mr. Schnautz. Thank you. Good afternoon. My name is Danny 
Schnautz, and I appreciate the opportunity to testify on behalf 
of the Owner-Operator Independent Drivers Association.
    My experience in the trucking industry covers over 30 
years, and has given me the opportunity to work as a long-haul 
trucker operating across the United States, as well as in motor 
carrier management. Additionally, I am a reserve sheriff's 
deputy captain and a pilot.
    OOIDA represents the small-business truckers that are the 
majority of the trucking industry. More than 90 percent of U.S. 
carriers own 20 or fewer trucks, and half of all carriers are 
1-truck operations. The average small-business trucker has 
driven more than 20 years and 2 million accident-free miles.
    This hearing comes at a critical time for the future of 
motor carrier safety policy. Instead of a reasoned 
understanding and approach to improving highway safety by 
addressing the key factors behind at-fault truck crashes, FMCSA 
policy enforcement is driven by a goal of absolute compliance 
with the letter of every single regulation, no matter the 
connection to at-fault crashes. This is a huge missed 
opportunity to achieve greater safety results at a lower 
regulatory burden.
    This focus on compliance with each of hundreds of 
regulations is the genesis for many of the FMCSA's most recent, 
most costly, and most flawed regulatory and enforcement 
policies, including changes to hours-of-service rules, 
technology mandates, and the Compliance, Safety, Accountability 
program called CSA.
    ``We were compliant, and we were legal, but we weren't 
safe.'' A major carrier CEO said this recently, and he couldn't 
be more correct. Under its current methodology, CSA 
inaccurately paints safe, small carriers as unsafe, reducing 
access to business, and opening them up to misguided 
enforcement activities. Meanwhile, truly unsafe carriers that 
crash frequently get ignored.
    Two examples illustrate the flaws of FMCSA's current 
approach. Recently, one of my company's trucks was inspected by 
a Texas State trooper. Although the truck was in stellar 
condition, an inspection violation impacting our CSA score was 
issued, because the trooper determined that the decals for two 
digits of the truck's USDOT number were unreadable. Also, at a 
recent safety meeting, rather than discuss topics that would 
actually relate to safety outcomes, such as breaking down the 
preventative actions a driver could have taken to avoid a 
crash, or highlighting proper following distance, because of 
CSA we train drivers on the proper completion of a form.
    One of OOIDA's greatest concerns is that the FMCSA's 
approach will force many of the safest drivers and carriers out 
of the industry, because it inhibits them from being successful 
small business owners. These are small business truckers with 
every incentive to operate safely.
    The current focus on technology initiatives actually 
hinders safety by placing more pressure on drivers when they 
are already caught between a regulatory rock and an economic 
hard place. Technology is not a substitute for skilled 
professional drivers, as it results in drivers more focused on 
not triggering an alert than on making smart, safe driving 
decisions. With technology in the name of safety further 
devaluing the skill of the driver, the longstanding approach by 
the entire supply chain to pay drivers for their productivity, 
not their value, pushes for more miles and decreases safety.
    In addition to today's hyper-focus on compliance and 
technology, the FMCSA is also advancing an action that directly 
targets small carriers, and will result in no safety benefit. 
OOIDA is opposed to a likely 500-percent increase in motor 
carrier financial responsibility requirements, and we thank 
Chairman Graves for his help in combating this effort. This 
change will cause annual truck premiums to increase by $10,000 
or more, despite FMCSA's own data showing that the cost of 99 
percent of truck-involved crashes are covered currently.
    Instead of these approaches, OOIDA sees the upcoming 
highway reauthorization as an opportunity to set into motion 
needed changes to FMCSA policy and enforcement priorities. A 
top goal should be an effectiveness review of existing FMCSA 
regulations, many of which have been on the books for decades 
with no evaluation on their impact to safety.
    Second, Congress should require any new regulations to be 
focused on addressing a specific problem and, based upon 
research, reflecting the entire industry, not just the 
experience of large motor carriers.
    Critically, as the GAO and others have recommended, CSA 
scores should be removed from public view until the FMCSA 
corrects the accuracy of the program's data and methodology. We 
are grateful to Congressman Barletta for his safety-focused 
bill on this issue, and the committee's work on a long-term 
reauthorization.
    Thank you for the opportunity to testify, and for holding 
today's hearing.
    Mr. Graves of Missouri. Thank you very much.
    Now we will move to Mr. Kretsinger.
    Mr. Kretsinger. Thank you very much. Chairman Graves, 
Ranking Member Norton, members of the subcommittee, I am Tom 
Kretsinger, president and CEO of American Central Transport. 
Today I testify on behalf of American Trucking Associations, 
the largest trade association for the trucking industry, 
representing more than 35,000 member companies. I will speak 
today about the trucking industry's positive safety record, and 
about a fundamental change in the Government's approach to 
truck safety that is needed to continue this long-term trend.
    The truck-involved fatality rate has decreased 74 percent 
since 1975, and in the last decade alone, has dropped 38 
percent. Continuous improvement will require an acknowledgment 
of the principal causes of truck crashes and appropriate 
countermeasures. The vast majority of truck crashes are the 
result of driver errors, not vehicle defects. FMCSA's crash 
causation study found driver error was a critical reason behind 
87 percent of crashes studied. Many improvements will also 
require a broadened approach from the current rules and 
enforcement-centric model to one promoting voluntary adoption 
of safety technologies and initiatives.
    ATA believes the discussion of the most effective ways to 
improve truck safety falls into three categories: rules, 
enforcement, and a new partnership.
    ATA has a proud history of supporting new commonsense 
safety rules. ATA was an early advocate of mandatory drug and 
alcohol testing, the CDL program, and the upcoming drug and 
alcohol clearinghouse. ATA continues to call for regulatory 
initiatives to improve safety.
    Regarding these regulations, ATA supports a proposed rule 
to mandate electronic logging devices to track hours-of-service 
compliance, a pending rule to mandate stability control 
devices, with some flexibility to account for the diversity of 
the industry. ATA is also eager to see a proposed rule calling 
for mandatory speed limiters on trucks, since vehicle speed is 
the greatest contributor to highway crashes.
    Finally, recognizing the role of driver behavior in 
crashes, FMCSA should make development of a national system to 
alert motor carriers to moving violations and license 
suspensions one of the agency's top priorities.
    Turning to enforcement, continuation of long-term 
improvement in truck safety will require a change in the 
Government's enforcement approach. Despite clear evidence 
driver behavior is responsible for the majority of crashes, 
Federal funding for on-road truck enforcement is predominantly 
spent on inspecting vehicle condition, not traffic enforcement. 
Government research shows traffic enforcement, coupled with a 
limited inspection, is at least four times more effective in 
preventing crashes and saving lives. Yet FMCSA data reflects a 
steep decline in enforcement activity. FMCSA's current safety 
efforts are largely limited to compliance and enforcement.
    The agency should use a carrot and stick, but is focused on 
using the stick. This approach is limited in its effectiveness, 
and does not address ways to compel positive behavioral change. 
Government should partner with us to promote voluntary adoption 
of innovative safety tools and technologies. In short, 
Government could establish criteria for meeting a gold standard 
and reward the fleets that made it.
    Government incentives can accelerate adoption of new tools 
and technologies already being embraced by the industry. Among 
the more promising technologies are video event recorders. 
These devices, mounted on a windshield, can monitor what occurs 
inside and outside a vehicle. Records are saved when risky 
driving or collisions are detected, and a supervisor is 
subsequently alerted. My company is a good example. We are 
currently employing these technologies, voluntarily, and it is 
really helping. We have seen a 64-percent reduction, both in 
the number of events and the severity of events, all while 
increasing the number of units in our trucks.
    Mr. Chairman, we are eager to work with the Government on 
more creative safety approaches.
    Thank you for the opportunity to testify.
    Mr. Graves of Missouri. Thank you very much.
    Captain Reese?
    Mr. Reese. Thank you, Mr. Chairman, members of the 
subcommittee. Thank you for holding this important hearing, and 
for inviting the Commercial Vehicle Safety Alliance to testify. 
My name is Bill Reese, and I am a captain with the Idaho State 
Police. I currently serve as the president of CVSA.
    The alliance represents the jurisdictions responsible for 
the enforcement of commercial motor vehicle safety laws in the 
U.S., Canada, and Mexico. As Congress considers the future of 
CMV safety, we believe there are a number of opportunities to 
make changes that will help advance our collective goal of 
reducing crashes and saving lives. Most critical is giving the 
States more flexibility to design and implement programs that 
improve CMV safety. Our top priority is saving lives, but we 
also have a responsibility to meet a long list of requirements 
under the Motor Carrier Safety Assistance Program, and to 
enforce the associated safety regulations, doing all of this 
with limited resources.
    A State's commercial vehicle safety program is comprised of 
a number of aspects, including roadside inspections, traffic 
enforcement on commercial motor vehicles, compliance reviews, 
safety audits, targeted strike forces, educational activities, 
and even traffic enforcement on private citizens operating 
dangerously around commercial motor vehicles. The appropriate 
level for each activity varies from State to State, and changes 
over time. States need the ability to design a comprehensive 
CMV safety program that uses creative solutions to address 
issues unique to that State.
    That is not to say that the States should not be held 
accountable. Congress and FMCSA should focus on setting broad 
parameters, program elements, goals, and expected outcomes, and 
then hold the States accountable for meeting program goals, 
using our annual commercial vehicle safety plan.
    We also support consolidating and streamlining the grants, 
which will reduce administrative burden on the States and 
provide more stability. This will enable States to spend more 
time and resources on doing the work of their program, rather 
than administering it.
    We also believe more work needs to be done to update and 
clean up the Federal regulations, which will benefit both 
enforcement and industry.
    Clarity, consistency, uniformity, and enforceability are 
the cornerstones of an effective regulatory framework. However, 
over time, additional regulatory authority, coupled with 
changes to the industry and technology, can result in 
inconsistent, outdated, and redundant regulatory language. To 
address this, CVSA supports requiring that FMCSA conduct a full 
review of the Federal regulations every 5 years, in 
collaboration with CVSA and industry. This will help with 
streamlining the regulations, eliminating outdated or redundant 
regulations, and clarifying those that need adjustment.
    Work is also needed to bring the safety regulations in line 
with regulatory guidance, interpretations, and policy memos 
issued by the agency. While this puts additional administrative 
burden on FMCSA, maintaining the regulations is one of the 
agency's core responsibilities, and the benefits and savings 
that will accrue for enforcement, industry, and the public 
justify this endeavor.
    Congress should also consider eliminating or minimizing the 
number of legislative exemptions in the future. Legislative 
exemptions complicate enforcement and have no safety oversight.
    Finally, maximizing technology and improving data quality 
can help capitalize on existing enforcement activities, as well 
as industry investments. It is imperative that those in the 
safety and enforcement communities take full advantage of 
technology to improve safety. New technologies like license 
plate readers and virtual inspection locations can expand 
enforcement's footprint, allowing a jurisdiction to cover more 
miles and more drivers and vehicles than it can with inspectors 
at fixed facilities, alone.
    And we fully support policies that encourage industry to 
deploy technologies that can assist in preventing and 
mitigating crashes, such as vehicle stability and collision 
warning systems. It should be noted, though, that any new 
requirements on States or industry must be developed with the 
enforcement community in mind. Deployment of systems and 
devices will only be effective if they are functioning, and 
used properly.
    One last note. We provided a number of recommendations on 
how to improve the future of CMV safety, which we hope will be 
helpful as this committee works on the next transportation 
bill. However, even with streamlined grants, clear regulations, 
top-quality data, and full use of all available technology, the 
State programs cannot be effective without adequate funding. 
Funding for State CMV programs must keep pace with the growing 
motor carrier industry.
    That concludes my testimony. Thank you for the opportunity 
to testify.
    Mr. Graves of Missouri. Thanks, Captain.
    Mr. Scott?
    Mr. Scott. Thank you. Chairman Graves, Ranking Member 
Norton, members of the subcommittee, on behalf of members of 
the United Motorcoach Association, thank you for calling this 
hearing today, and for the opportunity to represent the bus and 
motorcoach industry in my testimony. This committee has a long 
and distinguished record of promoting commercial motor vehicle 
safety in a reasonable and defensible regulatory climate.
    I am the president of Escot Bus Lines, a second-generation, 
family-owned and operated bus and motorcoach company with 
offices and facilities located throughout central Florida. Like 
most bus companies, we started small when my parents, Louis and 
Diane Scott, purchased two mini-buses in 1983. Currently, we 
operate a fleet of 84 motorcoaches.
    Mr. Chairman, I want to frame this conversation from one 
critical perspective: bus and motorcoach travel is extremely 
safe. Percentagewise, large buses account for less than one-
tenth of 1 percent of the annual highway fatality toll. This 
remarkable safety record is no small achievement, and is 
largely attributable to the vigilance and dedication of the men 
and women that drive, maintain, own, and manufacture our 
equipment. In a nutshell, our business is moving people safely, 
timely, and economically.
    The Federal Motor Carrier Safety Administration also plays 
a critical role in facilitating interstate commerce and 
ensuring the safety of commercial motor vehicles. However, UMA 
is increasingly concerned that the culture of the agency, 
through its actions, have not served the cause of public 
safety, and have been harmful to existing bus and motorcoach 
carriers and the continued growth and health of the industry.
    We are concerned enough to worry about the continued 
viability of this important transportation sector. For the 
first time I can recall in my 30-plus-year career, the Nation's 
motorcoach industry is in decline. A recent census report by 
John Dunham and Associates for the American Bus Association 
Foundation concluded that in 2013 the number of motorcoach 
companies decreased by nearly 5 percent, a loss of 153 carriers 
in that year alone. Total passenger trips by motorcoach in the 
U.S. declined by a whopping 32 million.
    You may believe the regulatory climate at FMCSA is a 
significant contributing factor. The biggest issue to UMA is 
the current regulatory climate at FMCSA. Let me share a real-
life example of the negative impacts of the current hostile 
enforcement posture of FMCSA.
    Another example is Jeff and Judy Rodgers, who together 
founded Southeastern Tours in North Carolina over two decades 
ago. The company passed compliance reviews with satisfactory 
ratings in 2003, 2005, and in 2010. The last review began very 
differently, when the FMCSA representative stated, ``I am going 
to warn you now that we have done five audits like this, and we 
have put four out of business.''
    Paperwork snafus, in combination with other correctable 
deficiencies, led the company being placed out of service. A 
long, miserable trail of employee layoffs, equipment 
repossessions, foreclosures, and unpaid creditors are a 
hallmark of FMCSA's unwarranted, out-of-service orders. Today, 
Jeff and Judy remain on the sidelines with an uncertain future. 
Jeff and Judy Rodgers deserve the same opportunity as my 
parents, Louis and Diane Scott. There are many other examples 
in my written testimony.
    The single largest threat to passenger carriers today is 
FMCSA's decision to propose a potentially massive increase in 
minimum financial responsibility limits for passenger carriers. 
MAP-21 directed FMCSA to study the adequacy of current limits 
and submit their findings in a report to Congress, which, like 
every State legislative body in the Nation, has historically 
established requirements. The report failed to include any 
analysis for passenger carriers, but focused exclusively on 
trucks, yet suggests limits as high as a 400-percent increase.
    The suggestion that limits should be increased without any 
study whatsoever is unconscionable. UMA supports a bill 
introduced just last night by Congressman Scott Perry that 
clarifies that passenger limits should be established by 
Congress, and directs FMCSA to do a comprehensive study of 
current limits and accident claims history of passenger 
carriers, consult with both the bus and insurance industries on 
the study, and submit that study to Congress.
    FMCSA's CSA program is another concern. If a driver of a 
car crashes into a legally stopped bus and is killed, nobody 
believes the bus and driver or company should be held 
accountable. Yet FMCSA insists on displaying these crashes to 
the public as a recorded fatal crash, absent any specific 
context. The display of nonpreventable crashes to the public is 
malicious, irresponsible, discouraging for motor carriers, and 
misleading to the public.
    These flaws are not just UMA's views, but GAO agrees. The 
GAO report of February 2014 concluded that ``...FMCSA 
identified many carriers as high risk that were not later 
involved in a crash, potentially causing FMCSA to miss 
opportunities to intervene with carriers that were involved 
with crashes.'' My company received a violation, citing us with 
failing to display the ``LLC'' at the end of our name. In 
another instance, finding no violations in a recent inspector 
of a driver in a vehicle, an enforcement official decided the 
restroom was smelly, and the carrier was cited.
    All too often, we hear enforcement officials say, ``Well, 
we have to find something.'' In any analysis, safety is not 
improved, the taxpayer is cheated, and CSA continues 
irresponsibly.
    Finally, UMA is concerned about the delays in approving new 
entrant applicants for operating authority.
    That concludes my testimony. Thank you very much.
    Mr. Graves of Missouri. Thank you, Mr. Scott.
    Mr. Byrd?
    Mr. Byrd. Chairman Graves, Ranking Member Norton, members 
of the subcommittee, my name is LaMont Byrd, I am the director 
of safety and health at the International Brotherhood of 
Teamsters. As a union representing more than 600,000 commercial 
drivers, we welcome the invitation to testify today.
    Our members contend daily with crumbling roads, long work 
hours, bigger trucks, increased congestion, and poorly trained 
drivers, all of which undermine safety. In order to ensure 
highway safety, these issues must be addressed.
    The current hours-of-service rule is designed to give 
drivers an opportunity for sufficient rest. It represents two 
decades of rulemaking, court challenges, and numerous studies. 
Two critical components of the rule were suspended in last 
year's cromnibus: the changes to the 34-hour restart provision 
increases the number of hours that a driver may work from 70 
hours to over 80 hours per week; and the required consecutive 
off-duty periods from 1 a.m. to 5 a.m., also suspended, were 
designed to mitigate cumulative fatigue.
    With the DOT driver restart study underway, Congress should 
not consider making either of these provisions permanent. The 
Teamsters strongly oppose increases to truck size and weight. 
The industry claims that increasing truck size and weight 
limits will result in fewer trucks on the road. With every 
increase, truck traffic has grown as shippers have taken 
advantage of cheaper rates and divert freight from rail to 
trucks. Highway design, stopping distances, congestion, and the 
current condition of our infrastructure are all factors that 
need to be considered as we debate this issue.
    The Teamsters Union also opposes increasing 28-foot double 
trailers to 33 feet. Adding 10 feet to an already elongated 
tractor-trailer combination decreases maneuverability and 
visibility, and compromises safety. Congress should not 
entertain special interest truck size and weight exemptions 
until it can examine the results of the ongoing comprehensive 
truck size and weight study.
    Testing drivers for substance abuse is necessary to keep 
unfit drivers off the road. But hair testing presents some 
interesting challenges. Our primary concern is there are no 
national standards, as with urine testing. Thresholds for 
positive test results are low to a point where secondhand smoke 
and environmental exposures to marijuana, for example, could 
affect test results. Since there are real consequences for 
those who test positive, it is important to ensure that these 
tests produce accurate and fair results.
    Equipping trucks with the latest safety technologies will 
eventually help reduce truck crashes. Technology such as 
vehicle stability, lane departure warning, and collision 
warning systems, can help drivers to avoid accidents. The 
Teamsters also support electronic logging devices to track 
hours of service. However, it is important to provide drivers 
with proper training to ensure a high level of driver 
acceptance, and that the data used by--collected by these 
technologies not be used to harass the drivers.
    For too long, the minimum insurance for motor carriers has 
remained at $750,000. The 30-year standard has become woefully 
insufficient, as accidents can easily cost millions of dollars. 
The Teamsters support raising liability coverage to $4.5 
million, and indexing it to inflation of medical costs. In that 
same vein, the Teamsters Union has serious concerns about 
attempts to create a national hiring standard for motor 
carriers. While we appreciate the challenges that shippers and 
brokers experience in determining what constitutes a safe motor 
carrier, proposed legislation is overly broad in that it 
imposes no liability for negligent selection of a motor 
carrier.
    Fixing DOT's safety rating system is a better solution. 
Safe operating procedures for motor carriers require 
accountability. FMCSA's CSA program provides that 
accountability, and we support it. While not perfect, we 
believe that it is a major improvement over the previous 
program. Our members report that, as a result of CSA, they are 
able to perform more comprehensive pre-trip and post-trip 
inspections, because carriers are more sensitive to how vehicle 
maintenance, for example, affects the carrier's CSA score.
    As I conclude, I want to mention detention time. Teamster 
drivers are compensated for waiting time, but that is not 
always the case with nonunion drivers. The longer they wait, 
the more time they lose, which can affect the time that they 
have left to drive. These drivers can then feel pressured to 
violate safety regulations by driving while fatigued.
    The IBT is committed to keeping our drivers and all others 
with whom they share the road safe. We look forward to working 
with you to help grow a transportation network that meets the 
future needs of this country, moves freight efficiently, and 
improves safety on our Nation's highways. Thank you.
    Mr. Graves of Missouri. Thank you, Mr. Byrd. We will now 
move into questions. We will start with Mr. Hanna.
    Mr. Hanna. Thank you, Chairman. Mr. Kretsinger and Mr. 
Schnautz, the--I have a report that came out today from the 
American Transportation Research Institute that has studied the 
hours of service, the 34-hour restart rule, that was initiated 
without the completion of the study last July. And the results 
are very predictable, based on the nature of the study and the 
quality of the study. I will give you a quick idea of what it 
is, I just would like your response.
    The crash data analyzed shows a statistically significant 
increase in truck crashes after July 1, 2013. Specifically, 
with injury and tow-away crashes in particular, the increase in 
injury and tow-away crashes would be expected, based on 
shifting of trucks to more congested weekday travel due to 
increased traffic and exposure. The truck GPS data analyzed 
identified a shift, because of this rule, from--to daytime 
hours, and--from nighttime hours to daytime hours, and from 
weekends to more congested weekdays. All of it could have been 
anticipated, in my view, and has been widely talked about.
    So that the--it is--what we are suggesting here--and I 
would like to submit this for the record--is that this rule 
actually made the world less safe for people in your industry. 
And it is, in my view, specifically because they never even 
bothered to study the change in dynamics of when they were 
asking people to drive.
    [The information follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hanna. And I am not asking you to confirm or not, but I 
would just like your--both of your opinions.
    Mr. Kretsinger. Thank you, Congressman, for the question. I 
saw this study this morning, and I think it proves the law of 
unintended consequences quite well. And it confirms what I hear 
from talking to my drivers. Average age of our drivers is 50 
years old, so these men and women have been around a while. And 
they tell me, when you used to get out of the city, you know, 
you hit that open road, and it would be kind of relaxing. They 
tell me they are in traffic pretty much all the time now. And, 
of course, traffic around them is often on a cell phone.
    So, I think it is true that pushing--you know, 
micromanaging the hours the way they have done has pushed more 
trucks onto the road during weekdays and daylight hours, and 
that is when the cars are there. And it is not surprising you 
will have more trouble.
    Mr. Schnautz. Yes. For sure, the hours-of-service 
restrictions are flawed, in that they try to predict what a 
driver is going to be feeling and thinking in the days and 
weeks and hours ahead, which is impossible to do.
    I have lived under hours of service, I made a living under 
hours-of-service regs. So I can tell you that the more 
flexibility that we have, the better they are. And whenever 
they put in more restrictions, they do cause more problems, 
unintended consequences, for sure. But there are so many times 
when a driver just needs a different hour that day. And every 
time we reduce that hour availability to him, even if it is not 
part of a pattern, then we further erode highway safety.
    Mr. Hanna. The interesting thing is that they have elected 
to continue the study, and are using the same university to do 
the study. And it is pretty clear that everybody involved in 
this is digging in, for lack of a better term, to prove that 
what we know through this study and all kinds of anecdotal 
evidence is not true, so that they are engaging in a study they 
would like us to believe that they will come out with later in 
the year that is unbelievable on its face because they are 
hiring the same people to do it again, who are well paid and 
clearly have decided that, no matter what the world tells them, 
they are incapable of making a mistake.
    Thank you for your indulgence. I am over my time, I think.
    Mr. Graves of Missouri. Ms. Hahn?
    Ms. Hahn. Thank you, Mr. Chairman. I appreciate you holding 
this hearing today. This has long been an issue for me on a 
number of levels, because I represent the Port of Los Angeles. 
And, along with Long Beach, it is the largest port complex in 
this country. And one of the moves that I worked on very hard 
was the idea of off--moving cargo off-peak. And we do have a 
system at Long Beach and Los Angeles where we are, I think at 
this point, close to 50 percent of the cargo we are moving in 
the weekends and in the evenings.
    We were on the Panel on 21st-Century Freight Transportation 
of this committee, and one of the recommendations that came 
from the panel was that ports across the country implement 
moving cargo in the evenings and the weekends, mainly because 
it allows our truck drivers to not have to compete with the 
commuters during rush hour on Monday through Friday. So I think 
it makes sense. I would like to see that, really, as a policy, 
nationwide. I think it makes a lot of sense.
    You know, one of the issues that I--has come to my 
attention in my port area is the classification of independent 
contractor for some of the port truck drivers. And I was with 
them this Monday. They were striking because they felt like 
there was wage theft and unfair employment practices by 
categorizing them as independent contractors, as opposed to 
employees of the country--I mean of the company. And many of 
these drivers are stuck at the bottom of the economic ladder, 
while other industry workers around our ports--railroads, 
longshoremen--are making a good living. These drivers, you 
know, told me that they are overworked and underpaid, which I 
think leads to unsafe roads, because of the welfare of the 
driver.
    So, Mr. Byrd, for you, some of these port truck drivers 
have seen victories in courts. And yet, still, I think this 
unfair practice exists. Again, particularly from my experience 
around the ports. What do you--is there a role--is there a 
Federal role in fixing this injustice? And what would that be?
    Mr. Byrd. Thank you for the question. I think it is a very 
tough and very challenging issue that you raise. With respect 
to Teamster drivers, our driver members are typically paid for 
all of their off-duty time. So I--and then there is this whole 
idea of paid-for detention time.
    Ms. Hahn. Right.
    Mr. Byrd. Which I think is probably a little easier to 
enforce, should there be a contract between the shipper and a 
motor carrier, than it would be for an independent driver. So 
we think it is important to properly classify the drivers, on 
the one hand.
    We think that the Federal Motor Carrier Safety 
Administration is doing rulemaking on coercion that we think 
might lend itself to helping to resolve this, because it 
brings--as I understand this proposed rule, it brings shippers 
into the jurisdiction of the agency. And this might be a way to 
bring them in and give independent drivers some leverage in 
dealing with the issue.
    Ms. Hahn. You know, in terms of the detention time or wait 
time, again, many of these drivers are only paid sometimes by 
the load, when they pick it up or drop it off. And yet there 
was so much wait time, I particularly felt badly for them 
recently, at the--what was going on at the ports, because of 
the shippers who gave up the chassis, the ownerships of the 
chassis, to a third party, which meant the chassis were not 
where they needed to be for these drivers to pick up the 
chassis and their load, which gave them more wait time and 
detention time.
    Could you--I just have a few seconds left, but could you 
elaborate on your comment earlier that sometimes these drivers 
are then pressured to drive more hours?
    Mr. Byrd. Yes. When you have a situation--and we have 
talked with the port drivers, also. When you have a situation 
where you have these extended wait periods, and you are paid by 
the load, and the shipper expects the product to be moved, they 
are oftentimes pressured to carry that load, without regard to 
where they stand with respect to compliance with hours of 
service. That is a very--a real problem. Again, we think that 
the coercion rulemaking might help us on that.
    Ms. Hahn. Thank you. I appreciate that.
    Well, I think driving a truck is a good career, it ought to 
be a good career, and ought to be something where someone could 
earn a good living by driving a truck, moving this country's 
goods. So thank you, I yield back.
    Mr. Graves of Missouri. We have had a procedural vote 
called, so there is just one vote. And what we will do is 
break, go take that vote. And please come back as promptly as 
you can, so the witnesses don't have to wait too long. But we 
should be--just a matter of time to run over there and run 
back. So we will--so moved.
    Mr. Graves of Missouri. Mr. Hanna, I recognize you for a 
motion.
    Mr. Hanna. Motion to adjourn.
    Mr. Graves of Missouri. Recess.
    Mr. Hanna. Recess until after the vote.
    [Laughter.]
    Mr. Hanna. So we will be--see you back.
    Mr. Graves of Missouri. So it has been moved to recess, 
which--I see no objection. So moved. And we will stand in 
recess until we get back. It shouldn't be too long.
    [Recess.]
    Mr. Graves of Missouri. Thanks, everybody, for your 
patience. And we will bring this hearing back to order. And we 
will move to Mr. Barletta for questions.
    Mr. Barletta. Thank you, Mr. Chair.
    Captain Reese, as you know, I have been very concerned with 
FMCSA's Compliance, Safety, Accountability program. I have 
heard from companies in my district that the scores are flawed 
and do not provide good information about the safety record of 
the commercial motor vehicle companies. Many of your fellow 
panelists' testimony mentioned violations that impact the CSA 
score, but have little to do with crash risk, such as Mr. 
Schnautz's comments on the violations for a blanket not being 
present in a sleeper cab.
    What are your concerns with the CSA program, and are the 
safety scores fit for the general public?
    Mr. Reese. Thank you, Congressman. CVSA supports the 
legislation you have to remove the scores from public display 
for a number of reasons. This is--and we sent a letter stating 
that to FMCSA.
    CSA is separate from the MCSAP program, and should not 
force changes. It is beginning to impact our State programs. 
Motor carriers are now requesting inspections frequently, in an 
effort to try to get clean inspections and get their scores 
down. The DataQ process is being affected. It is an unfunded 
mandate. And it is a growing burden, and it has just increased 
since we have the citation adjudication to deal with now.
    There are data quality issues, and this could be fixed by 
implementing hard coding and SmartLogic software. It is 
something that we have been encouraging FMCSA to do. Some of 
the traffic enforcement violations that are committed, and 
citations issued but no inspections done, that information is 
not in there.
    We would like to see the program fully implemented, which 
would include the safety fitness determination and intervention 
process. They both remain incomplete. And the bottom line is it 
was not being used as intended. We have shippers using this to 
determine whether a carrier is safe, and it was never intended 
for that. And these are just some examples on why we would like 
to see the scores come down from public view.
    Mr. Barletta. Thank you. Just yesterday I finally received 
a response from DOT Secretary Foxx to my question about the 
ongoing truck size and weight study. And, in short, it states 
that the study will not--will not--include an evaluation of the 
impacts of heavier trucks on our local roads and bridges.
    This is unacceptable. Heavy trucks today travel about 50 
billion miles on local roads, the roads that are not being 
studied. And that amounts to about one-third of all their 
travel. These are the same local roads excluded from the study 
that carry about two-thirds of the miles traveled by the public 
in their cars.
    Now, compared to our interstates and major highways, these 
roads are simply not--they are simply built differently. My 
family was in the road construction business. We built roads 
and bridges. I know how many inches of concrete are on an 
interstate, and I know how many inches of asphalt are on a 
public or local or township road. It is not the same.
    Mr. Byrd and Mr. Schnautz, both of you represent the 
drivers and the people driving on our local roads. In your 
professional experience, what have been the conditions you have 
experienced driving the first and last mile of your routes on 
local roads?
    Mr. Schnautz. First of all, we see a lot of variance in 
highway markings, in lane size, in ramp radiuses, things like 
that, which makes it very challenging.
    Second of all, we do see a lot of substandard roads. We see 
that on the interstates, too, which is typically in the small 
towns or any town, whenever you are off of the interstate. We 
are ready to see lanes that you need to try to avoid because it 
has the big holes in them, and that is hard on your truck. We 
are often seeing roads that we can't go down, or have weight 
limits on them, that challenge us to get where we are trying to 
go without taking a route that we weren't prepared to take.
    Mr. Byrd. And I think that our memberships who have 
operated on the secondary roads have experienced similar--have 
similar experiences. I think it is pretty clear to us that, 
oftentimes, these secondary roads are not, you know, quite as 
safe as a larger interstate.
    Mr. Barletta. So you agree the secondary roads are more 
dangerous, as found by The Road Information Program report 
published last year.
    Is there anything in your experience that says that these 
statistics are wrong?
    Mr. Byrd. There is nothing in my experience or in my 
discussions with our driver membership that would suggest 
otherwise.
    Mr. Schnautz. Secondary roads are more dangerous. We have a 
lot of different traffic speeds going on. You have a lot of 
turns. So, for sure, they are more dangerous.
    Mr. Barletta. And who pays for the secondary roads? The 
local townships, the municipalities, the cities who are having 
the most trouble providing services to their people. I was a 
mayor, too, and I understand that just as well.
    I am going to press Secretary Foxx to find a way to get 
answers to these questions about the impact on local roads, 
because that is what I asked for in the study, and that is not 
what I am getting. I don't care how long it takes. Congress 
can't make a decision of this magnitude without knowing how 
this will impact the safety of our constituents, and the 
ability of the States and the localities to pay for their 
critical transportation infrastructure. Thank you, Mr. 
Chairman.
    Mr. Graves of Missouri. Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. And thank you to 
the witnesses.
    I want to tell Mr. Byrd on the port truck drivers we are 
with you. We think that this has been an area where the State 
of California has been long trying to get some clarity and some 
assistance to these independent truck drivers. So thank you for 
your help. And I am also very concerned, Mr. Byrd, about the 
increase in truck size.
    And, Mr. Chairman, I have an email from highway patrol, of 
California Highway Patrol, opposing increased truck weights, 
because it creates much more violent and damaging crashes, and 
it goes on to give other information. And also, the Peace 
Officers Research Association sent a letter in, actually, in 
February 2013 in regard to the same thing, saying that they 
oppose efforts to increase truck size and weight. For the 
record?
    [No response.]
    Mrs. Napolitano. Mr. Chairman, the letters for the record?
    Mr. Graves of Missouri. Without objection.
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Napolitano. Thank you, sir. And the issue was raised 
when I was in the State Assembly of California, back in the 
nineties, and the truck weights and sizes, the effect of 
stopping distances, the braking, the vehicle stability control, 
many of the highways and on-ramps and off-ramps in California 
just cannot handle the large trucks. And I know a couple years 
ago there was an effort to increase the tandem 53-footers, and 
we also opposed that, simply because our on-ramps, off-ramps, 
and highways are not able to handle the tandem 53-footers.
    The fact that it does save lives--and there are a couple of 
people in the audience who have young--who have had family 
members killed in accidents, and I think we need to, Mr. 
Chairman, allow them to have an entry into the record about the 
reason why they feel it is a necessity to be able to allow the 
general public to have a weigh-in on this, because it is their 
safety we are talking about.
    So, the other thing, Mr. Byrd, is DOT recently decided to 
allow Mexican truck companies to apply for authority to operate 
long-haul trucking services in the United States. And we went 
over that issue a couple years back, here in this committee. It 
based its decision on the results of a pilot required by the 
Congress that determined the safety of long-haul trucking 
operations beyond the border in the U.S. But the inspector 
general issued a report saying DOT reached its conclusion based 
on unreliable data, that the small sample of participating 
motor carriers was not sufficiently representative to allow DOT 
to apply the study results to all Mexican truck companies.
    Well, fortunately, NAFTA requires it, if I remember 
correctly. This is one of the parts of the agreement, is--but 
we need to be sure that, if we are going to allow these 
trucking companies, that they meet all the safety requirements 
that we have on our trucking companies and all of our 
operations. And if you believe that limited inspections 
conducted on these trucks during the pilot program provided 
enough information to support DOT's decision to allow them on 
our U.S. roads.
    And, Mr. Schnautz, would you comment on that?
    Mr. Schnautz. Yes, I would be happy to. No, we do not think 
that the inspections and the data that are being used to open 
that border up are at all adequate. We saw a lot of 
nonconformances in inspections during the program. We pointed 
those out. And it wasn't even really meeting the definition of 
a pilot program, because of the way it was structured.
    But those out-of-service violations were not being properly 
flagged and then recorded and then reported. And with that 
overlooked data, and then a far less amount of data than what 
they initially said they would--going to find and use, there is 
no way that this is at all representative of the Mexican 
trucking industry, as a whole.
    Mrs. Napolitano. Well, we had great concerns over the 
ability to keep track of their driving hours, one; of the 
ability to have trucks operate with the same conditions we 
asked of our own trucks; with the language issue; with the 
hazardous material carried on there. And there were--many of 
those issues have been discussed ad nauseam, I might add. And I 
think we need to be able to ensure that, if we do, that we do 
provide them with some--how would I say--something to follow, 
so that we can tell them that they will be able to operate, but 
they have to have their trucks.
    I did speak to the Mexican consulate, or the--somebody on 
the other side. And they indicated to me that all their trucks 
met the specs, and that they were new trucks. Well, I begged to 
differ, and I told him so. So we need to be sure that you let 
us know, because this is an issue of safety on our side, and 
that is something we all need to be concerned about.
    And thank you, Mr. Chair.
    Mr. Graves of Missouri. Mr. Perry?
    Mr. Perry. Thank you, Mr. Chairman. First question will be 
to Mr. Scott.
    It seems to me that, you know, every single one of us in 
the room and everybody outside the room is interested in 
driving on safe roads. And certainly, as a business owner 
myself, there is almost no upside to minimizing your focus on 
safety. I mean, whether the cost to your hurt employees or 
broken equipment or the liability that would come from cutting 
corners in that regard.
    But, with that having been said, can you describe what 
effect a $20 million insurance minimum would do to a company 
like yours?
    Mr. Scott. Well, thank you very much for the question. 
Basically, going from the current $5 million to $20 million, 
essentially, you know, quadrupling the current standard, would 
be financially devastating. And for companies smaller than 
myself, it would literally put them out of business. And it 
very well could put us out of business, as well. It would most 
certainly discourage anybody, any new entrants, from coming 
into this industry, because they simply would not be able to 
afford it. And there has been no study, no data shown, that 
even proves that it is even necessary to do that.
    Mr. Perry. I mean, from my perspective, it is almost like 
the action might be designed specifically to put the companies 
out of business, to a certain extent.
    Mr. Scott. Well, I would agree with you. To me, it seems 
like a solution in search of a problem.
    Mr. Perry. Has your company experienced any crashes that 
have exceeded the current $5 million limit?
    Mr. Scott. We have been in business for 33 years. And no, 
we have never experienced a loss that has even come remotely 
close to that.
    Mr. Perry. So, based on that--and you have got 30-some 
years in it; you are the expert, I am not, so I am just going 
to ask you--what would you see would be the rationale to 
raise--for the Federal Government--I am not even thinking that 
this is the purview of the Federal Government. But if it is--
so, if that is the case, what would you suppose would be the 
rationale to raise it to that?
    Mr. Scott. I can only speculate on what the thoughts are 
behind the scenes of--to do that. But it would create a 
significant hardship on the industry. It would reduce the size 
and scope of our industry by an amount I am not even sure I can 
measure. But, as you saw in my comments, the industry is 
already in decline, and this could very well be, you know, the 
nail in its coffin.
    Mr. Perry. So, I mean, just like any other business owners, 
you are choosing--you have got a certain amount of revenue. You 
have got to pay employees, you have got to upgrade equipment, 
you have got to maintain equipment. You have got to pay 
operating costs associated with all that stuff. The more that 
you pay in insurance premiums that--for which you don't use--
right? You already stated that in 30-some years you haven't 
used anything close to that limit. That detracts and takes away 
from everything else, including maintenance and safety. Doesn't 
it?
    Just for anybody that has never operated a business, I 
think it is important for you to clarify that, because they 
might not understand that. A lot of folks think that that is 
just part and parcel to doing business. But something has to 
give. Your top line has to change, or your bottom line has to. 
One of them has to change.
    Mr. Scott. Well, you are absolutely correct. At the end of 
the day, any increase, any mandate that adds cost to a business 
has to be passed on to consumers. So our industry--passengers 
choose to travel by bus because it is convenient, and it is 
economical, and it is safe. You throw that $20 million around 
there, and the economical is going to go out the window.
    And you are absolutely correct that businesses are going to 
be forced to make choices. Do I pay my insurance premium this 
month? Do I pay my bus payment this month? I can't give my 
drivers a raise. OK? All of those things play a factor.
    Mr. Perry. Thank you. Moving on, Mr. Schnautz--if I have 
pronounced that correctly--just because you are operating out 
on the road as well, and I am sure you see this much more than 
folks like me do--would you say the enforcement emphasis should 
be focusing on some of the most egregious things? And I would 
just characterize--I imagine somehow you can get in trouble 
from a safety violation for having oil--having an oil leak. And 
as a person who has driven old cars and worked on old cars and 
aircraft, sometimes you would use the terminology, ``If it is 
not leaking, it means it is empty.''
    So, what can you tell me about--shouldn't our focus be on 
the most egregious of things?
    Mr. Schnautz. Absolutely. We get citations for a trailer ID 
light being out on a daytime, 20-minute drive. And that light 
won't be used in that 20-minute drive. We get all kinds of 
violations that really don't at all reward us for having 
inflated tires that are--have plenty of tread. And whenever we 
see these things, it has turned us into--a standard of 
perfection is all that is available to us. And that is not real 
world. That just does not do anything but cause us to focus on 
these details. And, as was said a minute ago, that money comes 
from somewhere. The time to focus on that comes from somewhere. 
It could be training, it could be other, more important 
maintenance issues.
    Mr. Perry. Thank you, Mr. Chairman. I yield.
    Mr. Graves of Missouri. Mr. Gibbs?
    Mr. Gibbs. Thank you, Mr. Chairman. And I had to go testify 
on the Rules Committee, so I have missed your testimony, but I 
have read it. And I also hope I don't ask a redundant question.
    But I want to start with either Mr. Schnautz or Mr. 
Kretsinger about CSA scores, the Compliance, Safety, 
Accountability. When I talk to my truckers in my district, I--
the stories they tell me are just unbelievable and scary. I had 
one tell me that, I guess, the bridge has fallen down there in 
Cincinnati on I-75, a hunk of concrete fell off and hit the 
truck, and the truck got dinged on his CSA score.
    So, one of you want to elaborate on what is really going on 
out there? Because I--you know, I have heard--I heard the 
Administrator told one trucking person, driver, or entity, you 
know, ``You were there.'' So, I mean, it is definitely broken. 
Because what happens in these scores, when it is not held--you 
know, when it is not their fault? It dings on the insurance 
rates, my understanding, and it also can ding them on--when 
potential customers, shippers, are looking at safety records 
and stuff.
    So, would you just kind of tell us what is going on in that 
regard?
    Mr. Kretsinger. Sure. Thank you for that question. And I 
can give you some personal experience. We pride ourselves on 
being by the book. We preach that always. By the book, no 
exceptions. I tell people, ``You don't like the rules, call 
your congressman. But we are going to follow them, 
regardless.''
    Our scores were all very good, and getting better, except 
for crash.
    Mr. Gibbs. Except for what?
    Mr. Kretsinger. Crash.
    Mr. Gibbs. Oh, crash. OK.
    Mr. Kretsinger. So we were having crashes. We have had some 
bad winters. Some of those were preventable by our driver, and 
some were not. Some were car rear-ending our trailer. But we 
saw an audit coming. We know that. It is very good for focusing 
resources, Federal resources, on audits.
    But, any rate, they came in, they audited us, spent 3 or 4 
days. And at the end of all that, except for two or three minor 
violations, we were compliant. And so, what is the end of this 
story? ``You are compliant.'' I don't see where that changed 
much.
    Attorneys have become very creative at chasing money. And 
one of the things they have done is, through brokers and 
shippers, under a negligent entrustment theory, or negligent 
supervision--so they have made these folks very nervous for CSA 
scores, something they don't have a lot of control on. So, I 
mean, it is----
    Mr. Gibbs. Excuse me. I have also heard that a trucking 
company can be, depending on the size of the business and the 
number of truck and different categories--and I had one 
trucking company tell me they got moved--they had a--they were 
at the top of the one category and then they got shifted in the 
other category. And nothing changed, other than to get shifted 
in the category, and their CSA went really bad. Is that----
    Mr. Kretsinger. Yes, we don't understand that. I mean one 
month our crash score was good, and next month it was high. We 
got audited, still on our record, it is now good again. I don't 
know why.
    I also would point out that these other CSA alerts are 
supposed to predict a crash. Our other scores are great. So 
they are out of joint. I don't think it is accurate.
    Mr. Schnautz. On the--speaking of predicting a crash, the 
driver fitness basic is actually counter to predicting a crash, 
and that has been shown by the FMCSA data. Our company, like 
many others, is misrepresented by our CSA score. Our crash rate 
is better than industry average, and our out-of-service rate is 
better than an industry average. So those two key metrics were 
safer than industry average.
    However, if you look at our CSA score, we don't look better 
than industry average. And it is because of the lights I 
mentioned earlier. It is easy money for an agency, for a 
jurisdiction, to pull a truck over that has one light obviously 
out, write the ticket, let him go. So that is a big disconnect. 
The revenue has--drives this a lot, and we all here follow the 
money.
    Mr. Gibbs. OK. I am almost out of time, I want to ask one 
more quick question. In my subcommittee dealing with the waters 
of the United States rule, I mean, we have heard lots of 
testimony where the EPA did not engage the stakeholders or the 
States, and all that. Do you feel that FMCSA engages with the 
industry effectively, and also determines the impact of their 
regulations on especially small carriers?
    Mr. Schnautz. Absolutely not. No.
    Mr. Gibbs. Anybody else want to respond? Mr. Scott?
    Mr. Scott. Thank you. I would say absolutely not. It is a 
hostile environment. And there was a time when FMCSA would work 
with the industry, and those days are long gone.
    Mr. Gibbs. Thank you. My time has expired. Thank you, Mr. 
Chairman.
    Mr. Graves of Missouri. Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman. Thank you to all our 
witnesses.
    First question that I have is for Mr. Kretsinger. You 
raised the idea of a gold standard program to have fleets 
voluntarily adopt innovative safety tools that would enhance 
safety. I believe, too, safety is paramount. And this idea of a 
gold standard program is actually pretty intriguing.
    Can you offer some thoughts on what this program would look 
like, and how it could improve safety in the near and the long 
term?
    Mr. Kretsinger. Certainly, and thank you, Congressman, for 
that. There is a lot of cool technology coming out, you know. 
You have heard of some of it. What is it going to be in 2 
years? It is a rapidly evolving thing. But these are tools that 
cost money, that are voluntary, and can have a big impact, if 
you combine that with, you know, driver counseling and coaching 
and the other things.
    So, a lot of members of ATA have gone out and spent the 
money on these things, even though they are not required by any 
Government to do it, because they see that it is good business 
and the right thing to do to be safe. That is what we all want.
    So, I think, if the Government was able to do something 
like help them on other areas if they do this, that provides 
incentives for more and more to do it. And I think the 
cumulative effect would be a lot more safety.
    Mr. Davis. Well, thank you very much for your response to 
that.
    Moving on to a different subject, I think it is very 
important to make sure we are focusing on the most effective 
ways to actually reduce and prevent traffic incidents. In your 
testimony you point out that FMCSA's report shows that more 
than four times as many crashes are prevented because of 
traffic enforcement in comparison to standard roadside 
inspections, and yet traffic enforcement only makes up about 10 
percent of field enforcement interventions, with that percent 
dropping, of course, as we know, in recent years.
    I agree, too, that this is concerning. And I know that the 
ATA is not advocating for a specific solution on this 
disparity, but I would ask you broadly, how can we achieve a 
better balance here?
    Mr. Kretsinger. I think what the focus ought to be is on 
the cause. And the cause is driver behavior. Not only the 
behavior of the truck drivers, but, even more so, the behavior 
of the passenger drivers. But so much of our problem is caused 
by something they do or they don't do. If you can impact that, 
you are going to have a greater impact on all of our goal, 
safety, than if you are spending your money on things that 
don't, like many of the things that happen in the scale house 
don't cause wrecks.
    So, if we can funnel our resources, our money, our people 
towards the things that do cause wrecks--and on these event 
recorders, we are seeing it. I mean, we are--it is kind of a 
picture paints a thousand words. It is following too close, it 
is distracted driving, it is not looking far ahead, it is 
people in the public not understanding how to drive safely 
around a big 18-wheeler going down the road at a high speed.
    If we can get to that, you will make a big impact. Whether 
a mud flap or a crack in the windshield or one light out, those 
things are important, but they are not going to have near the 
impact as behavior.
    Mr. Davis. Well, thank you. Thank you for your responses.
    Mr. Byrd, thank you also for being here today and 
testifying. I am a strong supporter of workforce training 
efforts. I believe they are a key part of creating and also 
maintaining jobs. As a matter of fact, I am once again 
introducing a bill that would make it more flexible for people 
to access unemployment benefits and not be punished if an 
antiquated system hasn't approved specific training, so that we 
can get people into jobs and employ more people.
    You mentioned in your testimony the efforts at FMCSA to 
expand entry-level driver training. How have your interactions 
with FMCSA been on this regulation?
    Mr. Byrd. Thank you for the question, Congressman. We have 
participated in the entry-level driver training advisory 
committee, along with other stakeholders, since late February. 
I think that, overall, the experience has been very positive. I 
think that the stakeholders--you know, unions, motor carriers, 
et cetera--have had a really great opportunity to have input. 
We think that the agency is listening to us, and hopefully, you 
know, at the end of the process, we will be able to come up 
with a reasonable proposed rule that will be acceptable to the 
motor carrier industry and the drivers.
    Mr. Davis. Well, thank you. My time has expired.
    Mr. Graves of Missouri. Mr. Hardy?
    Mr. Hardy. Thank you, Mr. Chairman.
    Mr. Scott, I would like to probably address you first on 
this one. It has kind of been addressed already, but being a 
previous business owner myself--that is one of the reasons I 
came to Washington, is that I don't believe my children have 
the same opportunities today to start a business, expand a 
business, and grow a business to employ, which I have had the 
opportunity.
    You talk about in your testimony that you don't believe 
that somebody could start that business today with regulation. 
You talked about insurance. Is there any other regulations that 
you feel that might be--the Federal Government might be holding 
back from that opportunity that we should provide, as----
    Mr. Scott. Well, we could certainly lower taxes.
    Mr. Hardy. Any others?
    Mr. Scott. Well, the--our industry is, obviously, most 
heavily regulated by the Federal Motor Carrier Safety 
Administration. However, you know, what we have seen in the 
course of the 30 years that we have been in business it that it 
is what I will call mission creep, what seems like from just 
about every Federal agency that has purview over what we do, 
whether that is OSHA, whether that is HHS--I mean you can go 
down the list of them.
    I think that the regulatory burden in general is--it just 
seems to be one of ``got you'' from just about every agency 
that there is out there. I mean the one that myself and our 
industry is feeling--the motorcoach industry, as well as the 
other folks up here on the truck side--is just that weight 
right now that we have coming from FMCSA that doesn't really 
seem to be accomplishing much of any goal. So that is really 
kind of the number one.
    But it seems that, you know, mission creep from just about 
every other agency--I mean we have actually been audited by 
TSA. I mean it just seems like there is just this never-ending, 
you know, envelope of Federal regulations that just seems to be 
coming around us, and it just doesn't seem to be stopping. So, 
I would say, pretty much everything.
    Mr. Hardy. OK, thank you. Mr. Kretsinger, Mr. Schnautz, I 
would also like to address this to you--and you kind of hit on 
it--as a business owner myself, those incidents that--in the 
construction industry that we encountered--as you know, in the 
construction industry you spend a lot of time on inner streets, 
you spend a lot of time within large communities like the Las 
Vegas area, and other. We found that that aggressive driver, in 
the majority of the cases, was usually the fault. And, like I 
say, we end up getting hit with the insurance, we get hit with 
those regulations.
    And I have known throughout my career many, many 
individuals who have been recognized for being million-mile or 
2-million-mile drivers without any incidents, which is amazing 
to think that you could do that, in the first place. Do you 
feel like--that some of these restrictions are starting to 
maybe cost those good drivers down the road, either one of you?
    Mr. Schnautz. Absolutely. You mentioned aggressive drivers, 
and that is a good counterpoint, is that some truck drivers 
aren't safer, just because they have technology. And it comes 
down to the driver. We can't use technology as a replacement 
for a good driver.
    But, yes, drivers and me, as a driver, often felt like I 
was a target. If I stopped on the side of the road and I got 
hit, it was going to be my fault. If I turn down a road to try 
to pull into a Stop-and-Go to get a Coke, maybe that is a no-
truck street. So every time we do this, we force the driver 
into every narrower lane, where he or she can exist and do 
their jobs. And it is not the same as it was when I was growing 
up with my dad in the trucks, back in the seventies, whenever 
many of those regulations didn't exist, or weren't enforced at 
all.
    So, whenever we do that--and I hear it from our drivers 
regularly, our veteran drivers, especially, that whenever ELDs 
come in, they are just going to leave, or when this happens, or 
when that happens.
    Mr. Kretsinger. I would just say that one thing we look at 
all the time, and the industry does, is driver shortage. I mean 
there--it is a problem. Everyone in the industry lists it as 
their number-one problem. And there is a lot of factors that go 
into that. Some of it is regulation, some is congestion. Some 
is it is a job that is not for everyone. So, I don't think it 
is any one thing. I think it is more of a cumulative impact.
    Now, the old cowboy trucker of 10, 20 years ago, he'd get 
in his big-hood truck, go down the road, he had no idea what he 
was doing. He would be out a long time, and come back. Now, 
with data, there is so much technology in the engine, in the 
ELDs, in the things we are doing, that they are really not 
alone any more in that truck. It does give a good measure of 
control for safety, but it also takes away some of the 
independence, which was the allure to these people for many 
years.
    Mr. Hardy. Thank you. I see I am out of time.
    Mr. Graves of Missouri. Mr. Ribble?
    Mr. Ribble. Thank you, Mr. Chairman.
    Well, it has been a long afternoon for all of you. Thank 
you for being here. I know that there are some guests in the 
room that have photos of loved ones that have either been 
killed or injured in crashes, and I want you to know that we 
take those concerns, and--very seriously, to try to figure out 
how in the world we can do a better job here, so there is less 
of that there. And I appreciate you coming. And certainly my 
deepest condolences.
    I would like to maybe start with Captain Reese. Do you 
believe, Captain, that it would be safer, our roads, highways 
would be safer, with fewer big trucks than more big trucks?
    Mr. Reese. I don't really have any data, one way or the 
other, to say that. I will just say that CVSA's stance on size 
and weight on larger trucks has always been a safety one. And 
we don't want to see anything done on that until this study 
comes out, and we don't want to see an increase in size and 
weight until we can be sure everything can be done safely.
    Mr. Ribble. It just seems to me that, obviously, minutes of 
exposure, the amount of time a driver is on the road versus 
time that a driver is not on the road, the driver not on the 
road is safer than the driver on the road. It just seems to me. 
Would you agree, at least agree with that?
    Mr. Reese. Oh, absolutely.
    Mr. Ribble. Mr. Kretsinger, would you agree with that?
    Mr. Kretsinger. I would say you would have no wrecks if 
nobody turned their engine on.
    Mr. Ribble. Got it.
    Mr. Kretsinger. But you would have no economy, either.
    Mr. Ribble. Of course, of course. But, I mean, there is a 
line here that you draw at some point.
    Mr. Kretsinger. Yes.
    Mr. Ribble. Right? We heard earlier a discussion from Mr. 
Barletta about the idea of heavier trucks riding on city and 
town and rural roads and State roads, as opposed to the 
interstate.
    Mr. Byrd, in your testimony you mentioned an exemption that 
my State, Wisconsin, received that you opposed. They didn't 
really get an exemption. The current weights of trucks that 
were currently driving on a U.S. highway when it becomes an 
interstate were grandfathered to an interstate highway. What 
would have happened, had that grandfather not happen, is those 
trucks would often have been redirected off the interstate, 
where it is much safer, to the county and city roads that you 
later--earlier testified in your testimony that you oppose.
    And so, it almost seems like you are contradicting the very 
same thing--the very thing that you hope to get at, would be to 
keep the heavier trucks on the interstate and off those roads. 
And I would encourage the Teamsters to reevaluate that 
position, because you might actually end up working against 
your own best self-interests.
    Mr. Reese, if you could, just for a moment--I am going to 
ask your permission, sir, to maybe take off your CVSA hat for a 
minute, and talk to me a little bit about Idaho. You are from 
Idaho, a State patrolman from Idaho. And they have experience 
with heavier, multiple axle trucks, and have had for several 
years. I understand that Idaho allows trucks to carry up to 
129,000 pounds on multiple axles. Has this worked out well for 
the State? And do you have concerns about seeing other States 
moving into a similar direction?
    Mr. Reese. Now, we ran a project for about 15 years, a 
pilot project in a southern part of our State, and we did allow 
vehicles to go up to 129,000 pounds. At the end of that pilot, 
we deemed that project a success. I will emphasize that these 
vehicles had more axles, they were able to bridge the weight 
because the damage to the roads was obviously a concern.
    And we are in the process right now of making that project 
go statewide, and we are moving it to the panhandle, which has 
a much different road system. And, as we do this, we are adding 
some additional safety requirements. We are in the process now 
to permit these loads. Some of the things we are looking at is 
a minimum number of years of experience for drivers who 
participate, because we don't want new drivers operating these 
bigger loads. They need to have the long combination vehicle 
training that is in the FMCSA's regulations. Safety-related 
things like that, because if we have these bigger loads on the 
road, we want them to be safe.
    Mr. Ribble. Yes, certainly. And, hopefully, if there--if, 
in fact, those heavier trucks were there with more axles, more 
displaced weight that--stopping capabilities being the same, 
the reduction in the number of vehicles--which goes to my 
earlier question--the potential reduction in the number of 
vehicles and exposure on the road wouldn't necessarily go down, 
because weight is distributed across fewer vehicles.
    Mr. Chairman, I would like to ask unanimous consent to 
insert into the record a study released by the Federal Motor 
Carrier Safety Administration last year. The study found that a 
six-axle, 97,000-pound truck stops just as quickly as a five-
axle truck loaded at 80,000 pounds. And I think it is important 
information to have.
    Mr. Hardy [presiding]. Without objection.
    [The information follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Ribble. All right, thank you. Thank you very much.
    I realize that discussion about truck weights and safety, 
sometimes these things can get very, very complicated, and 
often heated, where they don't actually have to be. We are all 
trying to get to the same place. We want to get to the same 
place the right way. And so I want to thank you all for your 
testimony today. You guys did terrific, all of you. And so 
thank you for being here. And with that, I yield back.
    Mr. Hardy. Thank you. Mr. Mica?
    Mr. Mica. Well, thank you. Sorry, I came a little late. 
This is the day of dueling hearings.
    Somebody said Mr. Scott might have an answer for me. But in 
some previous hearings I have mentioned that I have run into 
some people in the trucking industries that have told me that 
we are doing it all wrong, that, you know, the logs or the 
Governors or whatever you have got on these vehicles, all that 
can be compromised, or may not be as effective.
    But again, one of the individuals described to me that 
there is a device that you can have someone look into, it looks 
at the pupils, the eye, and can tell whether someone is 
fatigued. And he says that is the technology we need to be 
going to. Mr. Scott, are you aware of anything like that?
    Mr. Scott. Well, thank you, Congressman Mica. I have heard 
of that. I don't have any----
    Mr. Mica. See, and I brought it up a couple times as we 
discuss these things. Everybody says they have heard of it, but 
nobody has gotten to that technology. I pulled a couple of 
articles. There are other--there are some things that 
Caterpillar is using, and here is a Nissan driver attention 
detector, but this--these are not that kind of thing.
    What I am interested in is when we pull over a driver, you 
have him look into that, we have him blow into a--you know, a 
device to find out if they are intoxicated. But I am told the 
technology exists. Now, I want somebody to come back and let us 
know if this is real or not. Can you look into it, let us know?
    Who else is in a position to check this out? Has anyone 
else heard of this?
    Mr. Schnautz. Our association has heard of it, but there is 
no concrete information behind it, not enough experience to 
know if it has any value or does any good. Most things like 
that have--can be shown to have a good track record before they 
are really put into use. And the best thing is a driver that is 
experienced and motivated to do the right thing.
    Mr. Mica. We don't have anybody from the highway, do we, on 
this panel?
    [No response.]
    Mr. Mica. Federal Highway Administration? No? No.
    Well, again, the industry needs to help take a lead in 
finding technologies. And if this technology is out there, and 
it does seem like it is plausible, that you could have a device 
like this, the biggest issue we still have with these big--the 
big crashes is fatigue and driver drowsiness, and some of those 
factors. Isn't that still one of our biggest causes of the 
accidents, guys? Everybody?
    Mr. Schnautz. Actually----
    Mr. Mica. Let the record reflect three out of five nodded 
their head yes. OK, good.
    Mr. Schnautz. Actually, it is just driver behavior. Whether 
it is the car or the truck, as we said earlier, and just a bad 
decision, maybe trying to take an exit at the last minute, 
following too closely, things like that we see quite a bit. So 
it is just driver decisionmaking, not necessarily fatigue being 
the top item.
    Mr. Mica. Do you have a--and I guess there is American 
Trucking Associations. They are not here. But I just wonder if 
there is an association. And you got labor here, too, who 
should be concerned. Yes, sir?
    Mr. Kretsinger. Yes, Congressman. I am representing ATA. 
And a couple things I would offer. One, I think they have some 
information on some of this technology that they would be happy 
to provide. I would also offer that one thing that is becoming 
more prevalent in the industry is event recorders.
    Mr. Mica. Is what?
    Mr. Kretsinger. Event recorders. And event----
    Mr. Mica. Oh, event recorders, yes.
    Mr. Kretsinger. Yes. And this is a camera----
    Mr. Mica. Yes.
    Mr. Kretsinger [continuing]. That points out, and also in 
towards the driver----
    Mr. Mica. Well, the vehicles now, today--I have been 
renting some cars lately, and, my God, I move slightly towards 
another vehicle, I mean, there is great alerts because you--my 
biggest hazard in driving is that blind spot. And when I don't 
have my wife next to me, screaming, ``You're going to hit''--
you know--but now you have got this. It is incredible, the 
devices, and we will get there, with vehicles.
    But I would like you all, somebody from American Trucking 
Associations, go back and look at this. I will see if I can 
find the individual--and they told me the military had used 
some of this to test the fatigue of troops and things, and it 
was fairly valid. But we need to be looking at those kinds of 
technologies for safety enforcement.
    You know, you don't want to burden the truckers with too 
much technology, but there are devices that can save lives and 
be cost effective. So we just need to stay ahead of that game, 
because, again, maybe that is because I am getting older, but I 
was just with a--on one of the interstates with the double 
trailers in rain, and it was pretty hairy. And if they get 
drowsy or, you know, lose their place for a minute, we are all 
toast. So we got to do a better job for safety for the future.
    Thank you, Mr. Chairman. Yield back.
    Mr. Hardy. Any other Members?
    [No response.]
    Mr. Hardy. If--don't see any other Members. I would like to 
follow up just a bit with the direction I was headed earlier, 
on questioning. This might be for Mr. Reese.
    As you know, in the West, and particularly Utah, they have 
done some studies on their highways and other areas of--where 
they have actually increased the speed limits, tested up to 80 
miles an hour. And it is--I believe their results were 
positive, that they actually have had less traffic incidents.
    With some of the restrictions to--holding trucks to 65, 
would it be better that maybe that be held within the State's 
purview of how those trucks move? Because it is back to that 
aggressive driver, that slower truck moving on a freeway. Any 
comments on that from your side, Captain?
    Mr. Reese. That kind of goes down the line of speed 
limiters. And right now we are waiting to see what FMCSA's--
what they come out with on speed limiters. But the States do 
have various speed limits. We just raised on our--some of our 
interstates in Idaho last year we raised to 80 miles an hour 
for cars, and 70 for trucks. So we still have some variance 
there.
    But you have also got the variances in geography and stuff 
from State to State and area to area, as well. And that affects 
truck operations, as well. Areas like Idaho, where we have a 
lot of hills, the trucks slow down anyway on the hills.
    Mr. Hardy. Thank you. Are there any further questions from 
members of the subcommittee?
    [No response.]
    Mr. Hardy. Seeing none, I would like to thank each witness 
for their testimony today. And your contribution to today's 
discussion has been very informative and helpful.
    I would like to ask unanimous consent that the record of 
today's hearing remain open until such time our witnesses have 
provided answers to any questions that may be submitted to them 
in writing, and a unanimous consent that the record remain open 
for 15 days for additional comments and information submitted 
to--by Members or witnesses to be included in the record of 
today's hearing.
    [No response.]
    Mr. Hardy. Without objection, so ordered.
    If there are no further Members having anything more to 
add, the subcommittee stands adjourned.
    [Whereupon, at 4:28 p.m., the subcommittee was adjourned.]
 
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                            [all]
</pre></body></html>
